<html>
<title> - HEARING ON IT ASSESSMENT: A TEN-YEAR VISION FOR TECHNOLOGY IN THE HOUSE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
HEARING ON IT ASSESSMENT: A TEN-YEAR VISION FOR TECHNOLOGY IN THE HOUSE

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 27, 2006

                               __________

      Printed for the use of the Committee on House Administration



                    U.S. GOVERNMENT PRINTING OFFICE
31-073                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                   VERNON EHLERS, Michigan, Chairman
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
JOHN L. MICA, Florida                    California
CANDICE MILLER, Michigan               Ranking Minority Member
JOHN T. DOOLITTLE, California        ROBERT A. BRADY, Pennsylvania
THOMAS M. REYNOLDS, New York         ZOE LOFGREN, California
                      Will Plaster, Staff Director
                George Shevlin, Minority Staff Director


HEARING ON IT ASSESSMENT: A TEN-YEAR VISION FOR TECHNOLOGY IN THE HOUSE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 27, 2006

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:10 a.m., in room 
1310, Longworth House Office Building, Hon. Vernon J. Ehlers 
(chairman of the committee) Presiding.
    Present: Representatives Ehlers, Mica, Doolittle, Brady and 
Lofgren.
    Staff Present: Peter Sloan, Professional Staff Member; John 
Clocker, Senior Manager for IT Strategy and Planning; Fred Hay, 
General Counsel; George F. Shevlin, Minority Staff Director; 
Charles Howell, Minority Chief Counsel; Sterling Spriggs, 
Minority Technical Director; Stacey Leavandowsky; and Jared 
Roscoe.
    The Chairman. Good morning, ladies and gentlemen. The 
Committee on House Administration will come to order, and I 
welcome you all here.
    I would like to advise all of you to turn off your cell 
phones, pagers, and other electronic equipment, as I have 
already done, so that we will not have our business interrupted 
this morning. Thank you.
    Today's hearing is on the IT Assessment Initiative. IT, of 
course, as everyone in this room knows, is information 
technology, but our vast sea of listeners throughout the 
building may not realize that, so I wanted to make that clear.
    The Assessment Initiative outlines a 10-year vision for the 
future years of technology in the House of Representatives. 
This hearing will focus on several key business decisions 
called To-Be Visions, which the House needs to agree upon 
before implementing a strategic technology plan. We will talk 
about specific technologies to implement these To-Be Visions at 
a future hearing.
    The issue of using technology to improve House operations 
is not a new one. In 1995, as Chairman of the House Computer 
and Information Services Working Group, I championed the Cyber 
Congress Plan, commonly resulting in what is commonly referred 
to as the Booster Report. As part of that effort, we created a 
new standardized e-mail platform that would replace the 11 
separate e-mail systems used across the House. As challenging a 
task as it was, today we reap the benefits of being on a common 
e-mail platform as well as having other uniform software 
choices that allow for enhanced collaboration and improved 
technical support.
    And just talking about that, information technology churned 
through my mind because I recall the incredible task we had at 
that time. Now it is impossible for us to realize today, but 
back then, as you know, the House operated as a fiefdom, 435 
individual operations, each selecting its own computer, each 
selecting its own software, none of which talked to each other. 
And I was astounded when I got here and found it was easier to 
send an e-mail to Timbuktu than to send it 20 feet down the 
hall to a colleague. And that is why I was given the thankless 
job of trying to reform it. I am pleased that it all worked 
out, even though you would not believe the recriminations and 
criticisms I had to deal with at that time. I think it will be 
smoother this time.
    It is my hope that the findings we will examine today and 
over the next few weeks may reveal a similar opportunity to 
invest in the future of the House through the use of 
technology.
    On our first panel today, we are pleased to have Kathy 
Goldschmidt of the Congressional Management Foundation, and 
Larry Bradley from Gartner Consulting, who will discuss the 
results of the study. They were heavily involved in the study 
from beginning to end.
    These findings are the product of extensive research with 
key stakeholders, including detailed interviews of 128 Members, 
managers and staff throughout the House and the legislative 
branch.
    The interviews that the CMF and Gartner team conducted were 
designed to capture the challenges that House staff face each 
day, the impact of technology on their work, and what 
improvements we can make in our systems and processes to help 
House employees do their job better.
    As any researcher will tell you, any theory, no matter how 
well formed, must be tempered with the challenges and 
complications of real life situations in order to paint an 
accurate picture of their true effect. To provide this 
additional practical context, our second panel will consist of 
several experts on the administration and operations of the 
House.
    Jim Cornell, House Inspector General, will discuss the 
potential impact on the failure to embrace technology on the 
future operations of the House. Bill Livingood, the House 
Sergeant at Arms, will discuss the convergence of IT security 
and physical security and the implications for IT planning and 
decision making.
    Karen Haas, Clerk of the House, will describe previous 
efforts to implement new technology into existing processes 
within the legislative process and the Office of the Clerk.
    Pope Barrow, House Legislative Counsel, will provide 
insight into the challenges of drafting legislative language 
and how technology could improve that process.
    And finally, Jay Eagen, Chief Administrative Officer of the 
House, will provide a historical perspective on technology in 
the House, our current state, and where we go from here.
    And just reviewing this list of names reminds me of all the 
interviews and meetings I had with your predecessors 11, 12 
years ago, and some of the difficulties we encountered at that 
time. We have a good team together this time, and I don't think 
we will have those difficulties again.
    I would also like to announce that at the conclusion of 
this hearing the committee will make available all of the IT 
assessment research and recommendations on an internal House 
Web site, 
http://it.house.gov. Furthermore, we are soliciting general 
comments from any members of the committee or House staff 
members on the contents of this study. All may submit your 
comments at the above-mentioned Web site. The comment period 
will run through January 2007 in order to provide the 110th 
Congress freshmen an opportunity to participate.
    I thank all of our witnesses for their presence here today, 
and I look forward to receiving their testimony.
    At this time, I would like to recognize Ms. Lofgren for any 
opening remarks she may have.
    Ms. Lofgren. Thank you, Mr. Chairman. I would like to ask 
unanimous consent to submit Ms. Juanita Millender-McDonald's 
statement in the record. She could not be present here today.
    The Chairman. Without objection, so ordered.
    Ms. Lofgren. I don't have a formal opening statement. I did 
have an opportunity to be briefed on this process as a 
relatively new member of the committee. And I recall, as you 
do, first arriving here and being a little bit stunned by the 
technological situation. Certainly we have made great strides 
and there is more to do. I look forward to hearing the 
testimony.
    I would note that for reasons I cannot fully understand, 
since we are adjourning on Saturday, the Judiciary Committee is 
in markup, and I may have to zip out for a vote or two, but I 
would certainly not want to disturb the testimony. So proceed 
if I have to do that for a minute or so. I will be back.
    This is important stuff, no matter--we have issues, but 
then we have the Congress itself, and to have the tools that we 
need so that we are transparent and efficient is important. And 
technology I think is the key to that. So I thank you, Mr. 
Chairman, for recognizing me.
    The Chairman. And I thank you for those comments.
    It has been 10 years since the plan was implemented. 
Ideally we should be doing this every 5 years, not every 10 
years, and I hope that will be the pattern in the future.
    I would like to welcome our first panel of the day. We have 
with us Kathy Goldschmidt of the Congressional Management 
Foundation, and Mr. Larry Bradley of Gartner Consulting. 
Welcome to you both, and I am pleased to have you here.
    And I hate to reminisce all the time, but you would be 
amazed at some of the roadblocks I encountered. When we did the 
first report, there were some objections raised on our 
competence to do it. And someone who had no knowledge of 
computers was asked to review it and came out with some 
negative comments, at which point--I am very level minded, I 
don't get excited too easily--I said I don't mind having my 
work criticized, but it has to be by someone who is competent. 
And so we agreed on Gartner Corporation to do the review of our 
plan. And for an extra $10,000 we found that we were right. And 
I have always had a warm spot for Gartner Corporation since 
that time. We always like people who agree with us.
    I am very pleased to welcome both of you, and please begin 
with your testimony.

   STATEMENTS OF KATHY GOLDSCHMIDT, CONGRESSIONAL MANAGEMENT 
       FOUNDATION; AND LARRY BRADLEY, GARTNER CONSULTING

                 STATEMENT OF KATHY GOLDSCHMIDT

    Ms. Goldschmidt. Mr. Chairman, members of the committee, 
thank you very much for having me here today to discuss the 
House IT Assessment Project.
    As you said, I am Kathy Goldschmidt. I am Deputy Director 
of the Congressional Management Foundation. We are a 
nonpartisan nonprofit that has been providing management 
services to Congressional offices for almost 30 years.
    The House IT Assessment Project was initiated by this 
committee and the Chief Administrative Officer to develop a 10-
year vision and plan for technology in the House. To support 
the project, the House engaged Gartner and the Congressional 
Management Foundation.
    Larry Bradley and I have brought our own expertise and the 
considerable expertise of our organizations to this project. We 
have also channeled the knowledge within the House to create a 
roadmap for technology over the next decade.
    Although technology is at the heart of this project, we 
didn't spend the bulk of our time talking to technology 
experts; instead, we spent most of our time talking to the 
people who conduct the work of the House. We let the challenges 
and opportunities they identified and the processes they use 
guide us in identifying technology to help them, their offices, 
and the institution become as effective and as efficient as 
they want it to be.
    We are conducting this project in five stages. First, we 
did research to understand the current state of technology in 
the House.
    Second, we facilitated roundtables with members, officers 
and senior managers to provisionally agree on a vision for the 
House in the future.
    Third, we conducted a gap analysis to identify the 
difference between where the House currently is and where it 
wants to be.
    Fourth has been a working group with House officers to 
discuss how major technology decisions are made now and how 
they could be made in the future.
    And finally, we are developing a high level strategy, a 
roadmap to help guide the House in obtaining its vision.
    I am going to spend the remainder of my time discussing 
what we learned about the current state of technology in the 
House, and Larry will address the vision and the next steps.
    As Mr. Ehlers mentioned, to identify the current state we 
interviewed 128 people, including Members, officers, senior 
managers, professional and administrative staff, and technology 
specialists. We also reviewed literature on technology and 
operations in the House over the last 10 years. Through this 
research, we identified some findings that have resonated 
throughout this project, and we have categorized these as 
forces for change and institutional challenges.
    The forces for change are six factors that are exerting 
pressure on the House to more quickly and thoroughly integrate 
technology. The first force for change is the budget crunch, 
which is placing pressure on the House to minimize costs. 
Changing how technology is procured and used in the House is 
one way to save money.
    Second is the need for the House to be prepared for future 
security crises in which technology will play a significant 
role.
    Third is the increasing comfort of new Members with 
technology, since the businesses and State legislatures they 
are coming from use technology significantly different from the 
House.
    Fourth are increasing demands by constituents and the press 
for information, which technology can help meet.
    Fifth is the continuing integration of technology into 
society, which is placing pressure on all institutions to use 
technology more effectively.
    And finally, sixth, are the demands of the legislative 
cycle which technology can help members and staff meet as 
effectively as they would like to.
    Despite these pressures for change, however, the House 
faces challenges in its efforts to integrate technology. The 
challenges are not the result of anything the House has been 
doing wrong; rather, they stem from practices that have been in 
place for decades, coming into conflict with modern 
capabilities and demands. At this time in history traditional 
operations throughout our society are being tested by modern 
technologies, and all institutions are being forced to adapt.
    The four factors that seem to be the greatest hurdles to 
technology in the House now are: First, the lack of standard 
legislative document formats and policies makes it difficult to 
implement technology to increase sufficiency, enhance access, 
or reduce the cost of producing legislative documents.
    Second, the lack of House wide technology coordination 
sometimes leads to conflicts, redundancies and higher costs 
because offices often implement technology in a vacuum.
    Third is the fact that the House operates disparate systems 
throughout the institution, which prevents it from taking 
advantage of economies of scale, shared support services and 
enhanced capabilities provided by enterprise systems.
    And fourth is the general lack of resources in House 
offices. Although technology has placed all kinds of new 
demands on Members and staff, their resources aren't keeping 
pace with the demands.
    The forces for change are exerting pressure on the House to 
expand its use of technology and the challenges are exerting 
resistance. For the House to adapt most effectively to the 
demands of the Information Age, these challenges will need to 
be directly addressed and overcome.
    Through our current state research we laid a solid 
foundation for the House IT Assessment Project. I am going to 
leave it to Larry to discuss the vision of the future that the 
House built on this foundation. I hope that together we will 
provide you with not only a good idea of what we have done, but 
also with an understanding of the positive impact this project 
could have on Members, staff, and the institution in the years 
to come.
    Thank you, again, for having me here today.
    [The statement of Ms. Goldschmidt follows:]

    [GRAPHIC] [TIFF OMITTED] T1073A.001
    
    [GRAPHIC] [TIFF OMITTED] T1073A.002
    
    [GRAPHIC] [TIFF OMITTED] T1073A.003
    
    [GRAPHIC] [TIFF OMITTED] T1073A.004
    
    [GRAPHIC] [TIFF OMITTED] T1073A.005
    
    [GRAPHIC] [TIFF OMITTED] T1073A.006
    
    [GRAPHIC] [TIFF OMITTED] T1073A.007
    
    The Chairman. Thank you. Mr. Bradley.

                   STATEMENT OF LARRY BRADLEY

    Mr. Bradley. Mr. Chairman, members of the committee, thank 
you for giving us the opportunity to come here today and to 
discuss the IT assessment with you.
    My name is Larry Bradley, and I am an Associate Director 
with Gartner Consulting. And Gartner is the leading IT research 
and market analysis firm in the world. Along with Kathy, I have 
been one of the primary analysts and authors of the IT 
assessment.
    I will spend my time today focusing on the visions for 
technology in the House over the next decade and the next steps 
for obtaining these visions.
    Once we identified the current state of technology in the 
House, we needed to define where the House wanted to go, where 
it wanted to be in the future. To develop these visions, we 
conducted a series of workshops with members, senior managers 
from leadership, committees, Member offices, as well as House 
officers, legislative branch officials and high level IT 
executives and administrators. Through these workshops, we 
developed a series of vision statements on which workshop 
participants provisionally agreed. We grouped these statements 
into five categories.
    The first, for the legislative process, the participants 
outlined a vision for greater electronic access to legislative 
information and greater automation of legislative document 
production. Their vision includes the ability for Members to 
electronically access relevant documents in Chambers during 
committee and floor debates. It also includes the ability for 
Members to see in real time the changes that amendments are 
making to bills and bills are making to public law.
    Another component of their vision is more timely updates to 
the U.S. Code, so that there is always an official version of 
public law in order to draft new legislation.
    They also identified the need to include electronic 
documents in the official legislative record.
    And finally, they envisioned timely searchable access by 
Members and staff to all legislation before it is considered on 
the House floor.
    Second, for Member office operations, the participants 
envision a future where Member offices spend less time and 
money managing technology, but also realize significant 
benefits. Under this vision the House will provide commodity 
technologies, services and support to realize cost savings and 
improve the level of service.
    The vision also provides for staff in both Washington and 
the district to have improved access to information, services 
and technical support.
    And finally, the participants envision the House providing 
more services to help Member offices deal with constituent 
demands.
    The third area, for Members themselves, the participants 
defined a vision where technology would provide Members with 
more effective information access and improved communications 
from wherever they are.
    Then fourth, in order to achieve these visions, underlying 
process and capabilities must exist to support the institution. 
In this area of institutional operational support, the 
participants identified a vision where there would be greater 
coordination of major technology projects.
    The House would also provide enhanced services, 
capabilities and cost savings through greater centralization. 
Under this vision, the House would assign jurisdiction for 
technology planning to a single organization. This would help 
provide a more explicit process for strategic technology 
decision making, stakeholder involvement, and requirements 
gathering from Members and staff.
    The participants also envisioned involvement of Members in 
technology decisions that have a significant impact on the 
House.
    And fifth, the participants discussed the role of 
leadership in technology and decision making, and determined 
that leadership should have a role in working with the House to 
determine the direction of institutional technology adoption.
    Throughout the process of developing these statements, the 
participants acknowledged the challenges in attaining the 
visions and the trade-offs that would have to be made.
    The key point that emerged is that technology changes are 
easier than the cultural and organizational changes. The House 
would realize significant benefits by attaining the visions, 
but because they touch on some well-established business 
practices and cultural assumptions, the changes will require a 
great deal more than just choosing and implementing new 
technologies.
    Our final task is to develop a strategic technology road 
map, which we are currently in the process of doing. We will 
lay out the critical components and milestones for achieving 
the visions. The steps in this task include: First, providing a 
more focused description of the House IT visions; second, 
identifying critical technologies and supporting management 
processes necessary to implement the vision; and third, 
developing the final report and conducting briefings with House 
stakeholders. This road map will provide the House with an IT 
strategy that includes high level recommendations and direction 
for achieving the visions over the next decade.
    Once this project is complete, however, the House will 
still have significant work to do over the next 10 years to 
achieve the visions. The House will need to first vet and 
approve the House IT strategy. This will require a business 
case where benefits, risks and costs are thoroughly analyzed, 
then socializing and communicating the strategy and its 
benefits with key stakeholders and the House at large to win 
support.
    Second, once the strategy has been approved and vetted, the 
House will then need to develop individual implementation plans 
for specific pieces of the House IT strategy, and then the 
House will be able to begin executing and implementing the 
strategy.
    Again, we thank you for the opportunity to brief you on the 
House IT Assessment, and we now look forward to answering any 
questions you may have for us.
    [The statement of Mr. Bradley follows:]

    [GRAPHIC] [TIFF OMITTED] T1073A.008
    
    [GRAPHIC] [TIFF OMITTED] T1073A.009
    
    [GRAPHIC] [TIFF OMITTED] T1073A.010
    
    [GRAPHIC] [TIFF OMITTED] T1073A.011
    
    [GRAPHIC] [TIFF OMITTED] T1073A.012
    
    [GRAPHIC] [TIFF OMITTED] T1073A.013
    
    [GRAPHIC] [TIFF OMITTED] T1073A.014
    
    [GRAPHIC] [TIFF OMITTED] T1073A.015
    
    [GRAPHIC] [TIFF OMITTED] T1073A.016
    
    [GRAPHIC] [TIFF OMITTED] T1073A.017
    
    [GRAPHIC] [TIFF OMITTED] T1073A.018
    
    [GRAPHIC] [TIFF OMITTED] T1073A.019
    
    [GRAPHIC] [TIFF OMITTED] T1073A.020
    
    [GRAPHIC] [TIFF OMITTED] T1073A.021
    
    The Chairman. Thank you very much.
    Let me begin with some questions. First one. In your 
testimony--and I don't recall which of you said that or if it 
is in the report--you discussed that no office or entity has 
the authority or mandate to plan and coordinate technology 
projects. Maybe I am partial to the committee, but I thought 
the committee had that authority. Are you saying we don't have 
that authority? And are you saying it because it is dispersed 
or shared with three officers of the House, or is there some 
other reason?
    Mr. Bradley. Yes. When we were doing our research, one of 
the things we identified is that although the Committee on 
House Administration does have responsibility for a large 
portion of the House, there are pieces of it that it doesn't 
have responsibility for. And so there are other organizations, 
the Rules Committee, for example, the Committee on 
Appropriations that all have pieces or they all have 
responsibility for some areas of strategic technology decision 
making, and that there is no one office, no one organization 
that has the ability to look across all the different pieces of 
decision making. So where Appropriations has the view and most 
of the finances, House Administration only has a limited view 
for the areas that it has direct responsibility over.
    The Chairman. All right. Is this clarified in your report 
as to who has which authority?
    Mr. Bradley. I don't know if we list all the different 
components of which areas have authority over what pieces. One 
of the parallel processes that we are working on is IT decision 
making workshops, where we did go into more depth on who 
actually has the ability to make decisions in which areas, and 
that report will be released as well. In the current report 
there is some information on that.
    The Chairman. Thank you.
    Ms. Goldschmidt, you have mentioned in your testimony 
disparate systems. Could you explain what you mean by that?
    Ms. Goldschmidt. Right now, as you mentioned in your 
opening statement, IT was the case in 1995 when you did the 
work, the previous work, there still are basically 448 or 
more--actually, more with the committees and leadership offices 
and institutional offices--different small businesses that make 
their own decisions or largely make their own decisions about 
technology. And so although there are House standards and there 
are some policies to have similar systems, offices for the most 
part get to make their own decisions about what technology, 
hardware, software they buy, what equipment they use, and to 
some degree how they use it, and so they are not always 
compatible with one another. And it makes the support of these 
systems more difficult and more expensive.
    The Chairman. Well, that leads to another question. The 
previous chairman of this committee had a key role in 
technology in the Ohio legislature where they had adopted a 
system whereby the computer stays with the office, when you 
move from one office to another you move from one computer to 
another. We are currently discussing something similar here. It 
would save a huge amount of money in our moves every 2 years if 
we could treat computers as we treat telephones; in other 
words, they belong to the office. And frankly telephones are 
now small computers, so the analogy is quite apt.
    In your interviews and discussions with Members and staff, 
was this broached at all? And furthermore, do you have any 
recommendations on that proposal that we simply move the files 
from one office to another, but not the computers, not the 
telephones, not the file drawers, et cetera? Any comments?
    Mr. Bradley. Sir, we did talk about sort of the ownership 
of data and the ownership of computers and applications, and it 
was something that there was concern about where people, you 
know, store sensitive information on their work stations on 
their desktops, and so one of the things that would need to be 
done is to make sure that that information can be removed from 
the desktop, and then the hard drive being wiped clean so that 
the person is secure in knowing that their information is not 
going to be exposed to somebody else. And so that is something 
that, you know, would provide a great deal of benefit to the 
institution if those work stations would stay so you didn't 
have to move them. And there are ways of limiting how much work 
it will take to move that information from one computer to 
another, and to quickly wipe those machines clean and prepare 
them for the next user.
    The Chairman. Did you make any estimates of how much money 
we would save?
    Mr. Bradley. No, we did not. But one of the things we did 
look at is that currently the House spends about 33 percent 
more on supporting Member offices than similar organizations 
that have similar, what we call complexity and size profile. 
And so, you know, we do see that there is significant area for 
improving the cost savings in the area of supporting Member 
offices and their computers.
    The Chairman. Thank you. My time is expired.
    I recognize Ms. Lofgren for 5 minutes.
    Ms. Lofgren. I am wondering if you have a concept on how we 
can get more Member buy-in on this. In looking through the 
reports, I notice that the Members who participated in the 
interview were all Members of this committee, and there has 
been an effort to outreach, but an unsuccessful effort.
    As my colleagues know, the 435 of us, plus commissioners, 
are an independent group and will pay attention when they feel 
that their traditional prerogatives are being abrogated. So I 
think this is not really a technology issue so much as a 
sociological issue, how do we do the up front successful 
integration with them. And I wonder if you have any suggestions 
on that score.
    Mr. Bradley. Sure. One of the things that we have developed 
is the idea of what we call a Mobile Member Working Group. And 
essentially what we would like to do is recruit technology 
savvy Members who are interested in developing what the Member 
of the future would look like.
    One of the things that was discussed is that really if you 
want to get Members' attention, you have to have other Members, 
so it is sort of a network effect. If we can get a core group 
of Members who are really interested in technology, in 
developing this vision of what the Member of the future is 
going to look like, they can begin working with the technology 
implementers to develop this vision, to develop how they want 
to be operating as Members. And then from there, they can act 
as champions, they can act as the carriers of the message to 
the other people, the other Members, and then slowly begin 
building that.
    The other thing is also that if you begin developing sort 
of a more formalized IT decision making structure, then what 
you will be able to do is you will be able to target Members 
and provide them only the information that they need and the 
decisions that they need to make so you can limit how much time 
they need to spend either preparing or engaging and answering--
--
    Ms. Lofgren. Well, our Members are all over the board. 
There are some colleagues that are white-out-on-the-screen 
people, and other people who could, you know, build a computer 
from the parts you buy at Fry's and everything in between. So I 
think we need a matrix that we don't share with anyone, because 
none of us--and none of our colleagues wants to admit that they 
are white-out-on-the-screen people, but whether it is the chief 
of staff or the Member themselves doing the decision making.
    I am wondering--and I am not making this proposal, but I 
had a chance to go through some of this with the staff, which 
was very helpful yesterday, and in the course of our discussion 
we mentioned that this is a very large organization, the House 
of Representatives, without a CIO. Do you think that that would 
be something we should look at or not? And have you had a 
chance to consider the pros and cons of that?
    Mr. Bradley. Yes, we did take a look at that. And one of 
the things, as we were going through and exploring how decision 
making is made in the House, it seemed more appropriate to have 
more of a steering committee or, you know, a council that made 
decisions, because with the traditional organization of the 
House, there are different organizations as we talked earlier, 
like Appropriations, like Rules, who have specific 
responsibility for areas in the House and the way the House 
operates. So it actually seemed to be more appropriate to have, 
you know, limited steering groups and limited councils of 
people to make decisions collectively.
    Ms. Lofgren. I will yield back, Mr. Chairman, I know that 
time is short.
    The Chairman. I yield to Mr. Mica for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman. Interesting. A couple of 
things I don't know if you considered. One of the things when 
you get to IT and use of technology is the sort of the loss of 
documents, too. In the past--and I was talking with a librarian 
of Congress some time ago, but in the past there has been a 
great history compiled of Congress and the executive branch 
through hard documents. I don't know if any thought has been 
given to technology and how we retain some sort of the 
legislative history and development. Drafts are wiped out with 
a click of, you know, a button or a key, that we don't have the 
history that we had before. Is this something you all looked 
at--or a record of development of legislation and other 
documents?
    Ms. Goldschmidt. It is not something that we looked at in 
depth, but it is an issue that we raised in our discussion of 
the legislative process. The Library of Congress currently has 
a project that is looking intensively at this as well. And so, 
you know, what we suggested is that the House consider looking 
at and working with the Library of Congress----
    Mr. Mica. One of your concerns is that there weren't 
standards. Probably great histories have already been lost as 
we have become more reliant on computers and technology because 
we don't have those hard drafts that we used to have, unless 
somebody has printed a copy along the way. But it is just a 
part of sort of a gap that is going--that started and will 
continue. And maybe there should be some standards for 
retention of some of this material.
    And I noticed that again you have so many different 
systems, and you cited that, everything sort of being developed 
on itself. I was trying to buy just a--well, the acquisition of 
technology is one that just blew my mind. Trying to buy a 
laptop through the House of Representatives is a 30-day ordeal 
that never ended. I couldn't find a standard--I couldn't find a 
model, and then when you got it, the operational capabilities--
and I think that is repeated 435 times. That is just an 
acquisition. Then there are other issues of interoperability 
that haven't--I don't think have even been addressed with some 
of the stand-alone equipment or equipment that is taken for 
granted in the private sector. Is that also something you 
found?
    Mr. Bradley. You know, one of the things that we did look 
at is that, you know, the House has made a couple attempts of 
putting in some of these more centralized processes, these more 
centralized capabilities. And generally what it has been is it 
has sort of grown up from the bottom. So HIR or CAO, they come 
up with a good idea, and they are trying to put this process in 
place, capability in place, but because they are having to do 
it in isolation, and you know, it has--there are a lot of 
challenges in trying to get it to work correctly. And so as you 
take sort of these half steps, it makes it difficult to really 
develop a very efficient process and an efficient way of doing 
it.
    And so, you know, looking at what our findings say is that 
there needs to be more of a sort of top down buy-in, more of 
this institutional decision to put in these processes or put in 
these capabilities, and that increases the chance of them being 
more effective.
    And so we did look at--when we talked to people in our 
interviews, there was sort of this tension between, you know, 
the attempts of the House to centralize things or to provide 
shared services, but that it was never really something the 
institution as a whole decided to do. It is generally one 
office trying to do good, and without that coordination, 
without working together, you know, the obstacles are just too 
high for most of them.
    Mr. Mica. Sometimes it just seems like we are spending a 
lot of our time inventing and reinventing the wheel.
    Maybe this hearing will help us find a better way. Thank 
you.
    The Chairman. The gentleman's time has expired.
    Mr. Doolittle, do you have any questions?
    Mr. Doolittle. No, Mr. Chairman.
    The Chairman. Just a few follow-ups. What comments did you 
find about the availability of technical service, whether TSRs 
or other means? I sense a lot of frustration in my colleagues 
about the time it takes, so most of them hire a staff that has 
at least one IT knowledgeable person of varying degrees of 
competence to deal with the day by day, and some even hire 
someone who is basically full time IT, and they fill their 
other time with office duties. This strikes me as being an 
inefficient way.
    What did you hear and what is your opinion on that issue?
    Ms. Goldschmidt. We heard comments to that effect, that 
there is a lot of frustration. The way the House is structured, 
their technical support right now, the offices do have or are 
expected to have somebody in the office to do day-to-day 
things. There is also the House TSRs, and then there are the 
systems integrators, which are really to provide the bulk of 
the technical support for an office.
    And the frustration, the tension that we heard most was 
that these are not always coordinated, not always on the same 
page, and there is finger pointing among them. And this is one 
of the issues that led to the conclusion or to the vision of a 
more centralized technical provision. So it would include, you 
know, commodity hardware and software as well as support being 
provided by the House. And that would reduce the likelihood of, 
you know, the dissatisfaction with different people saying 
different things, doing different things, and not knowing who 
is responsible for what. There would be one entity with well-
trained staff to provide technical support.
    The Chairman. And that leads to my next question, which is 
having, for example, a centralized server system. And that is 
rife with political angst on the part of Members, which would 
have to be dealt with. But I would be surprised if there is any 
other organization of our size that has this many distributed 
servers around, basically a server in every office, which adds 
tremendously to the cost of the total system.
    In your discussions with Members and others, did you find 
receptivity to centralizing servers, taking them out of the 
offices and ensuring their security to the satisfaction of the 
Members, which is key. And I know when I computerized the 
Michigan Senate, the only way I could sell this plan was to 
have a bank of Republican servers and a bank of Democratic 
servers, even though as you know they can exchange information 
as easily as if they are in the next room or as if they are 
next to each other. What did you encounter in this and what is 
your recommendation?
    Mr. Bradley. When we discussed it with Members and their 
staff, there was a lot of concern about letting go of that 
physical control. They feel like the server sitting on their 
desk run by somebody that, you know, they can point to and say, 
you know, you are responsible for this, it gives them a feeling 
of comfort, and that there would be a fair amount of resistance 
to letting go of that. But I don't think it is something that 
is insurmountable. There are ways of ensuring that security and 
ensuring the independence of the organization. One of the 
concerns was if the--if HIR is appointed by the majority, then 
the minority may have concerns about that. But using the 
Inspector General, using a lot of modern management processes 
and technologies, all of those concerns can be alleviated.
    A major part of this, though, would be the communication 
effort and educating people on the fact that really having that 
server in your office, it drives up cost a great deal, and 
actually reduces the security of the system rather than 
improving it; that having that more centralized function can 
give you the security and much better performance at a much 
lower cost.
    The Chairman. Thank you. And the last quick question. Did 
you interview or talk to individuals in district offices about 
their likes or dislikes with the system?
    Ms. Goldschmidt. We did. And their primary concerns were 
the speed and availability of their systems, and the 
availability of information. They feel kind of--especially 
those in districts that have significant time zones, Alaska, 
Hawaii, the West Coast, where it is harder for them to just 
pick up the phone and call the D.C. staff and get the 
information that they need. And so they had significant 
concerns about expanding information available to them so that 
they could find information on their own, and improving the 
speed of their systems.
    The Chairman. All right. I can vouch for myself. When I use 
the computer in my district office, I find it extremely 
frustrating. And frankly, I use the computer in my home office 
most of the time simply because it is faster working over the 
Internet than working over a T-2 connection.
    Thank you very much for your responses. This will conclude 
the first panel, and I appreciate your participation and your 
suggestions.
    I next would like to ask the second panel to come forward.
    We have with us Mr. Jim Cornell, House Inspector General; 
the Honorable Wilson Livingood, Sergeant at Arms of the House; 
the Honorable Karen Lehman Haas, Clerk of the House; Mr. Pope 
Barrow, House Legislative Council; and the Honorable James 
Eagen, Chief Administrative Officer of the House.
    I would first recognize Mr. Cornell.

 STATEMENTS OF JIM CORNELL, HOUSE INSPECTOR GENERAL; THE HON. 
 WILSON S. LIVINGOOD, SERGEANT AT ARMS OF THE HOUSE; THE HON. 
 KAREN LEHMAN HAAS, CLERK OF THE HOUSE; M. POPE BARROW, HOUSE 
    LEGISLATIVE COUNSEL; AND THE HON. JAMES M. EAGEN, CHIEF 
              ADMINISTRATIVE OFFICER OF THE HOUSE

                    STATEMENT OF JIM CORNELL

    Mr. Cornell. Mr. Chairman, and Members of the committee, I 
am pleased and honored to appear before you today in my 
capacity as Inspector General of the House.
    First I would like to commend the committee for the work 
that has been initiated to increase the awareness of the 
House's need for a comprehensive strategic IT planning process. 
We endorse the Gartner IT assessment methodology and concur 
with their reported findings.
    We believe that the House would be well served in 
considering the visions set forth in the Gartner report and 
adopting the related recommendations. If fully implemented, 
they would also address prior OIG audit recommendations. Our 
past audit work demonstrates that strategic IT planning has 
been a longstanding need here at the House.
    Since 1995, my office has conducted five audits related to 
this topic. In our June 2002 report, we stated that the House 
did not have a plan to project its technology needs or to 
develop an effective IT strategy. Our report concluded that 
without a mandate, the House would never have an entity-wide 
strategic IT plan that would serve the interests of the entire 
House.
    We provided three options for consideration; one, appoint a 
House level nonpartisan Chief Information Officer; two, create 
a House level IT Steering Committee; or three, delegate 
centralized IT planning and management authority to an existing 
House officer. The Gartner report, which points to a steering 
committee approach built around key stakeholders and decision 
makers, meets the intent of this recommendation.
    It is important to note that industry best practices call 
for effective strategic IT planning. The IT Governance 
Institute, internationally recognized for setting standards and 
performing research in information systems security and 
assurance, developed the Control Objectives for Information and 
Related Technology, commonly known as COBIT, as a framework for 
assessing, managing and optimizing IT investments. This 
framework consists of linking business goals to IT goals, 
providing metrics and maturity models to measure their 
achievement, and identifying the associated responsibilities of 
business and IT process owners. The linking or strategic 
alignment of IT resources with the organizational business 
strategy is one of the five cornerstones of IT governance.
    The Gartner report appropriately focuses on the need for 
creating a vehicle for setting the strategic vision and 
carrying out the technology planning process. Once this 
decision-making vehicle is in place, we recommend that the 
House consider the remaining areas identified in COBIT so as to 
achieve the full intended benefit of IT governance--they are 
value delivery, resource management, risk management and 
performance measurement.
    Looking forward, as the House implements its IT vision, my 
organization stands ready to assist. Through our independent 
reviews, we will provide assurance that the strategic IT 
planning process is designed, implemented and sustained with 
the appropriate controls to ensure confidentiality and security 
for all House stakeholders. As we did with the House-wide 
deployment of Active Directory, where we played a critical role 
in evaluating and testing the Active Directory forest design 
and the related alert system, the OIG will provide review 
assistance dealing with deployment of the plan to mitigate the 
overall risk to the House, and to ensure integrity and equity 
in the process.
    In closing, I would like to stress that the cost of not 
implementing a coordinated House-wide strategic IT plan is 
quite high. Without one, the House will continue to incur 
increased unnecessary cost for its information technology 
resources because it will be required to support multiple 
platforms, maintain overlapping technologies, and will not 
benefit from the economies of scale experienced by other 
organizations similar in size.
    Nonstreamlined operations and disjointed, incomplete 
information could also cause a lack of responsiveness to 
customers and unduly complicate the ability to secure our House 
technology infrastructure. Case studies have shown these types 
of failings often result in adverse publicity and decreased 
stakeholder confidence in the organization.
    In contrast to this scenario, a fully implemented, 
coordinated House-wide strategic IT plan would provide Members 
with an improved support structure and timelier access to 
information, which in turn would better enable them to produce 
quality legislation and make informed decisions.
    Mr. Chairman, and Members of the committee, thank you again 
for providing me this opportunity to share my thoughts with you 
today, and for your interest and leadership in developing a 
strategic IT plan for the House.
    [The statement of Mr. Cornell follows:]

    [GRAPHIC] [TIFF OMITTED] T1073A.022
    
    [GRAPHIC] [TIFF OMITTED] T1073A.023
    
    [GRAPHIC] [TIFF OMITTED] T1073A.024
    
    [GRAPHIC] [TIFF OMITTED] T1073A.025
    
    [GRAPHIC] [TIFF OMITTED] T1073A.026
    
    [GRAPHIC] [TIFF OMITTED] T1073A.027
    
    The Chairman. Thank you.
    Mr. Livingood.

           STATEMENT OF THE HON. WILSON S. LIVINGOOD

    Mr. Livingood. Mr. Chairman, and members of the committee, 
I am honored to appear before you today to discuss the 
Information Technology Assessment and ten-year vision for IT in 
the House of Representatives.
    I am here to provide you with my thoughts on the impact of 
this 10-year vision as it relates to the functions of the 
Office of the Sergeant at Arms.
    My staff and I were active participants throughout the 
study, providing input for the current state report through 
interviews with personnel from Gartner and CMF. In addition, my 
staff participated in the focus groups as part of the To-Be 
Vision, and IT decision-making workshops. We found the study to 
be thorough and complete. Gartner and CMF included all 
pertinent offices within the House that support service 
operations, and also acquired feedback from the many 
stakeholders that participate in transmitting data through the 
House.
    The use of information technology within the Office of the 
Sergeant at Arms is mainly focused on supporting the security 
functions of the House. The production of identification 
badges, distribution and inventory control of parking permits, 
wireless communications inside and around the House Chamber, 
and during special and emergency events are all areas that rely 
on IT infrastructure for consistent and reliable operations.
    There are a number of instances where centralizing and 
standardizing the information technology functions and 
equipment in the House could be useful to my office. As a 
member of the U.S. Capitol Police Board, I have seen the impact 
of information technology on the physical security systems of 
the Capitol campus. The ability of autonomous systems to share 
information is dependent on compatible hardware and software, 
in addition to the proper information, security controls to 
ensure the data is not compromised.
    One example of this is communications during emergency 
events, both among the office staff and with outside offices 
and agencies, which relies on various forms of wireless 
communications--from BlackBerry devices to two-way radios to 
cellular devices. The ability to utilize these forms of 
communication to notify Members of an emergency situation and 
to provide accountability of Members during these events could 
be more effectively implemented in a centralized IT environment 
using systems that are interoperable.
    Another area that could be beneficial to House operations 
is the idea of a Federal identification badge. Currently, the 
agencies of the executive branch of the government, pursuant to 
the Homeland Security Presidential Directive 12 are 
implementing an identification badge that will be valid across 
all agencies of the executive branch using digital 
authentication.
    Although current business processes in the House do not 
provide an effective means of implementing all the requirements 
of this directive, my office, in conjunction with the U.S. 
Capitol Police, has been reviewing these standards to determine 
if certain points or portions of the directive could be more 
easily achieved should the IT process change.
    Another area of interest I have been exploring is the use 
of so-called SmartCards to blend the ideas of physical security 
and access security. SmartCards are ID badges with computer 
chips built in to store large amounts of data. These cards 
could be used to provide access to secure areas of the Capitol 
complex, and also as a means of authentication for House staff 
to access their computer accounts and e-mail. To implement this 
vision, however, the physical security access control systems 
managed by the Capitol Police, the Active Directory 
authentication system managed by HIR, and possibly the ID 
badging system managed by my ID section would have to share 
information across various platforms. Centralization and 
standardization of information systems would be necessary to 
implement a system such as this.
    Mr. Chairman, I thank you for the opportunity to give you 
my thoughts on this vision, and hope that we have been able to 
share some insight into the effect and the need for 
standardization and centralization of IT services in the House 
of Representatives.
    [The statement of Mr. Livingood follows:]

    [GRAPHIC] [TIFF OMITTED] T1073A.028
    
    [GRAPHIC] [TIFF OMITTED] T1073A.029
    
    [GRAPHIC] [TIFF OMITTED] T1073A.030
    
    The Chairman. Thank you.
    Ms. Haas.

            STATEMENT OF THE HON. KAREN LEHMAN HAAS

    Ms. Haas. Thank you. Mr. Chairman and members of the 
committee, I am pleased to appear before you today regarding 
the 10-year technology vision for the House of Representatives.
    I was introduced to this project shortly after becoming 
Clerk late last year, but the Office of the Clerk has been 
engaged in this project since its inception in 2004. Hopefully 
my testimony will further our efforts to ensure the House of 
Representatives proceeds along a path of greater efficiency.
    Due to time constraints, Mr. Chairman, my brief comments 
will focus on three examples of technology advancements and the 
importance of a long-range plan to resolve outstanding policy 
questions.
    The Office of the Clerk has been a longtime active partner 
in advancing technology in the House. Since the late 1990s we 
have worked with the House Legislative Counsel in cooperation 
with the Secretary of the Senate, the Library of Congress, and 
GPO to implement a vision of this committee to bring 
standardization to the creation and transfer of legislative 
documents.
    An agreement was reached to use extensible markup language 
otherwise known as XML, for the exchange of legislative 
documents. To date, customized XML based applications allow 
House Counsel to draft 98 percent of bills, resolutions and 
amendments in XML. This represents the cross-organizational 
standardization of text that needs to occur in order to more 
fully exploit the electronic dissemination of legislative text.
    Ms. Haas. There is more work to be done before we reap the 
full benefits of a fully electronic process for creation, 
distribution and presentation of legislative documents. The 
scope of the initial effort must be expanded to allow every 
entity in the legislative process access to these tools.
    Future plans should include the creation and exchange of 
additional legislative documents in XML, committee reports, 
hearings, House Calendars and journals. This is not a simple 
endeavor and can only happen if the effort is part of a fully 
coordinated plan that ensures that all parties are committed to 
its success.
    The second technology advancement is electronic 
authentication of digital signatures. In between the issue of 
standardization and access to data is the matter of the 
official version. Currently, paper is regarded as the official 
version for legislative documents. For example, although an 
electronic version accompanies nearly 99 percent of introduced 
bills, an original signed hard copy must be submitted on the 
Floor of the House while in session in order for it to qualify.
    While respecting the primacy of the printed version as the 
official version, we must consider the importance of having a 
means to associate the electronic version of legislation to the 
printed official version that derives from it. This is critical 
if Members and staff are going to be allowed access to reliable 
electronic documents.
    The solution to this problem lies in the area of electronic 
authentication. We have deployed the first and only official 
use of electronic authentication in the form of an outsourced 
digital signature certificate for the filing of lobbying 
disclosure forms. We would envision an agreement on an 
electronic authentication standard, a mechanism suitable for 
legislative and other documents, would be one of the critical 
areas of concern for the House in the near future.
    With regard to on-time availability of legislative 
information in committee and the House Chamber settings, I 
share the views of those who recognize that it is not just a 
matter of deploying equipment and software, but rather it is a 
fundamental policy issue of determining how our rules and 
procedures would have to be changed to accommodate the 
immediate access being discussed.
    The third technology advancement is electronic filing for 
lobbying disclosure. Since electronic filing became mandatory 
in 2006, we have realized over an 80 percent on-time compliance 
rate, with the filings becoming instantly accessible for public 
viewing on our terminals at the Legislative Resource Center.
    Under current law, the information that must be provided to 
the Senate and House by a registered lobbyist is mandated, but 
the process for filing is not. As you are aware, in the House 
we require registrants to file electronically, while the Senate 
does not. This has resulted in two entirely different computer 
systems and databases that provide challenges to the filer, 
challenges to the Office of the Secretary of the Senate and the 
House Clerk, as well as additional expense.
    These are only a few examples where coordinated policy 
guidance and established procedures could help the efficiency 
of our process, reduce costs, and benefit Members, staff and 
the public as we strive to make accurate information available 
as quickly as possible.
    Mr. Chairman, in conclusion, I would liked to again thank 
the Committee for the invitation to appear here today. The 
Committee should be commended for the leadership you have shown 
in moving the House forward technologically, while recognizing 
many of the important challenges we must deal with as an 
institution. I look forward to continuing the partnership that 
has developed through this process and to further advancements 
in the use of technology in the legislative process.
    The Chairman. Thank you.
    [The statement of Ms. Haas follows:]

    [GRAPHIC] [TIFF OMITTED] T1073A.031
    
    [GRAPHIC] [TIFF OMITTED] T1073A.032
    
    [GRAPHIC] [TIFF OMITTED] T1073A.033
    
    [GRAPHIC] [TIFF OMITTED] T1073A.034
    
    The Chairman. Mr. Barrow.

                  STATEMENT OF M. POPE BARROW

    Mr. Barrow. Mr. Chairman, members of the committee, thank 
you for the opportunity to testify at this important hearing.
    First let me briefly explain the functions and duties of 
our office. The Office of the Legislative Counsel is the 
legislative drafting service for the House. We provide 
assistance in connection with virtually every bill, amendment, 
and conference report produced by the House.
    The office is nonpartisan and neutral as to issues of 
legislative policy. We maintain strict confidentiality with 
each client. We also provide some services ancillary to 
drafting. One of these is the preparation of reported bills for 
the committee in the format needed by the Clerk of the House 
and the GPO. We also prepare a portion of each committee report 
showing the changes made in existing law. This is known as the 
Ramseyer.
    We participated in the preparation of the Gartner Report, 
and we concur by and large with the findings of the report. Our 
operations are highly dependent upon information technology and 
upon interaction with other House offices, especially the Clerk 
of the House and the various House committees. Unfortunately, 
when it comes to information technology, coordination has 
fallen short.
    Members and their staff often ask us questions relating to 
our software systems. For example: Why does it take so much 
longer now for your office to prepare drafts than in the recent 
past? How can we edit your drafts with our software and send 
them back to you for your review and further revision? Why are 
you having so many problems producing Ramseyers for the 
committees? Why did you stop giving committees up-to-date 
versions of the laws in our jurisdiction?
    These questions can only be answered if you understand the 
limitations of the information technology that we and other 
House offices rely on and how it is currently put in place. 
Each House office involved in the legislative process, 
including ours, to quote the Gartner Report, ``is independently 
responsible for identifying, acquiring and supporting 
technology to conduct its work with little coordination or 
standardization of processes, formats and technologies.''
    Let me first briefly describe the recent history of our 
document composition software. We were using a very old, 
essentially an obsolete, text-editing system. A few years ago 
it began to break down completely. We needed to bring a new IT 
solution on line. With no IT expertise of our own, when the 
Clerk of the House offered to develop a new bill-editing 
software for us as well as for the Clerk's own use, we 
accepted.
    The new software using XML, extensible markup language, 
allows for instant publishing on the Web and offers other 
opportunities for the Clerk's Office to function much more 
efficiently. We now use the XML program for the composition and 
editing of all legislative documents.
    The cooperation between our office and the Clerk's Office 
is an unusual example of two House institutions working 
together to bring an IT solution on line. That is the good 
news.
    The flip side is that the software is designed best to fit 
the Clerk's operation and is not ideal for our office. It is 
also not well adapted for use by other House offices with which 
we need to collaborate.
    The developers were aware of this, but did not have the 
authority or the budget to expand beyond the scope of the 
Clerk's functions and our basic functions. An example may help. 
Our clients often wish to revise draft legislative language 
provided by our office and have that highlighted in text. This 
is known as red-lining. But no Member staffs are working with 
the XML editor, nor are many committee staffs. And even if they 
did, they couldn't collaborate in this way because the program 
does not provide this feature.
    Another example: Members who have served in State 
legislatures often ask why bills amending existing law do not 
show the changes made in existing law. There are several 
reasons. As I mentioned above, we do prepare a document, the 
Ramseyer, showing these changes in connection with reported 
bills. This is required by the House rules. We prepare this 
manually. It is now more difficult than ever before because we 
need to get our old software and the new XML software to work 
together, and it is a tricky process.
    The result is that our ability to provide these Ramseyers 
to the committees on time has deteriorated. This failure has a 
House-wide impact because a committee report without a Ramseyer 
does not comply with the House rules. To consider the bill, the 
rules have to be waived, and the waiver can sometimes be 
controversial.
    It would be possible with XML to automatically and almost 
instantaneously show the effect of proposed bills on existing 
law. State legislatures and other foreign legislatures already 
do this. Within our office we are attempting to build a 
solution on our own so that we can better meet the committee's 
need for Ramseyers. However, even if we built it, we couldn't 
deploy it throughout the entire House for use by Members and 
committee staffs.
    There is another reason why it is so difficult to depict 
changes made in existing law, and it has nothing to do with 
information technology. The reason is that we do not have an 
accurate, current, and official version of existing Federal 
law, as amended, on paper or in electronic form. Nor does 
anyone else. To be positive Federal law, the kind you need for 
legislative amendments, a U.S. Code title must be enacted as 
such by Congress. Only 24 of the 50 titles, less than one-third 
of the volume of Federal laws, is officially codified.
    The effort to codify all Federal law in the United States 
Code foundered many, many years ago, so most Federal law is not 
part of codified positive law titles. The nonpositive law 
titles are completely different in form and numbering and 
cannot be used for legislative amendments. Members who have 
served in State legislatures are used to having all State laws 
in a single official State code easily available in printed or 
electronic form on a current basis. That is not the case in the 
House. So we are left with most Federal law in uncodified form. 
There is no entity responsible anywhere for providing an 
official amended version of these laws.
    Our office, various universities, private businesses, 
various other people, all cut and paste each new Public Law, 
often many new Public Laws, into the original to provide a best 
guess as to what the official amended law would look like. None 
of these documents are official, and the degree of accuracy is 
unknown. So that means that any document provided by anyone 
showing changes made in the existing law would rely on an 
unofficial, and possibly an inaccurate, base.
    To draft amendments to these nonpositive laws, we need to 
manually maintain the best current electronic database of them 
that we can, albeit unofficial and possibly inaccurate. We used 
to use this database to provide committees, upon their request, 
compilations of the various laws in their jurisdiction. These 
would be unofficial, but the committees often found them very 
useful and printed them for their members and staff. Some 
posted them on their Web sites.
    We can no longer provide the committees with these 
documents. Our database of Federal laws have become so 
difficult to maintain, with part of it in XML and part being 
done in the old software, that we are unable to continue 
providing this service. I have been hearing some complaints 
from a number of committees about this.
    The solution to these problems really requires an overall 
entity of some kind with responsibility for providing IT 
solutions that work for all components of the House, including 
our office, the Clerk's Office, the Members and the committees.
    We endorse the conclusions of the Gartner Report 
specifically regarding the fragmented feudal structure of IT 
planning and implementation in the House with individual 
compartmentalized silos of IT development leading to 
inefficient business decisions. The ultimate solution, we feel, 
will require the imprimatur of the Majority and Minority House 
leadership.
    Mr. Chairman and members of the committee, thank you again 
for the opportunity to present my perspective on the 
information technology issues addressed by the Gartner Report, 
and I am happy to try to answer any questions you may have.
    The Chairman. Thank you very much for your accurate, but 
depressing report. I came from a State legislature and had the 
same questions. I finally came to the conclusion that the 
present system was maintained to deliberately confuse new 
Members, and no one has yet disproved that. Thank you for your 
comments.
    [The statement of Mr. Barrow follows:]

    [GRAPHIC] [TIFF OMITTED] T1073A.035
    
    [GRAPHIC] [TIFF OMITTED] T1073A.036
    
    [GRAPHIC] [TIFF OMITTED] T1073A.037
    
    [GRAPHIC] [TIFF OMITTED] T1073A.038
    
    [GRAPHIC] [TIFF OMITTED] T1073A.039
    
    [GRAPHIC] [TIFF OMITTED] T1073A.040
    
    [GRAPHIC] [TIFF OMITTED] T1073A.041
    
    [GRAPHIC] [TIFF OMITTED] T1073A.042
    
    Mr. Eagen, for the final word.

  STATEMENT OF THE HON. JAMES M. EAGEN, CHIEF ADMINISTRATIVE 
                      OFFICER OF THE HOUSE

    Mr. Eagen. Thank you, Mr. Chairman, Ms. Lofgren, Mr. 
Doolittle. Thank you for your time, and I am very excited to be 
here to participate in this hearing.
    The CAO was very pleased to participate in the development 
of the House IT assessment, and we are supportive of many of 
the recommendations and observations in the report.
    I would like to thank the committee for sponsoring the 
initiative and for establishing the comment period that the 
Chairman referenced in his opening statement. This approach is 
consistent with the recommendations of the study to make House 
IT decision-making more transparent.
    I would also like to recognize Kathy Goldschmidt and Larry 
Bradley for their work. They had an arduous job of listening to 
128 different people give their take on the challenges of IT 
decision-making and the state of our systems, and to compile 
them in the manner they have has been very helpful and very 
effective.
    The Chairman has noted that he intends to have another 
hearing on the more detailed aspects of the recommendations in 
the study, so I would like to focus on what I consider to be 
some high-level, important aspects of the study for the 
committee's consideration.
    First, the title of the study may give the wrong impression 
that what we are doing is picking nifty technology bells and 
whistles. It is not. The primary focus needs to be on business 
processes. How does the House see its primary business 
processes evolving in the next decade? And then and only then 
how can technology be employed as an enabler of those evolving 
business processes.
    Many of the House's business processes today flow from 
traditions and precedents established over the past two 
centuries. As we look to the recommendation of the assessment, 
it is important that we first consider our processes and 
institution and how Members, staff, and the broader House 
community, including the public, believe those processes may 
need to evolve to better support the legislative process and 
operations of the House.
    The many innovations recommended in the 10-year road map 
will require a coordinated and collective vision that includes 
processes and procedures to improve decision-making with regard 
to House information technology.
    Second, when contemplating a new vision of House business 
processes, it must be done with an eye to the future; not just 
the next 10 years, but well beyond. When I consider the future 
of the House of Representatives, I think of my son and the 
rapid pace of change he will see in his lifetime. He is 8 years 
old, and I think there is a very good chance that he will live 
to see the year 2100. In the next century, technology will be 
even more integrated into our daily living than it is today. 
This will result in profound changes to the institution of 
Congress, for its Members and for our American citizens.
    We can expect an increased demand from constituents to have 
access to their Representatives and their government on a real-
time basis. This will mean that notions mentioned in the House 
IT assessment, such as mobile Members and expanded electronic 
access to legislation and the legislative process, are 
inevitable. Through technology, I fully expect that Members and 
staff will be legislating anywhere, any time.
    My point here is simple. If we ask ourselves, do we expect 
technology to have a significant impact on the House by the 
year 2100 within our young children's and grandchildren's 
lifetimes, and the answer is yes, let's bring that same mind-
set to this study and begin that process now.
    Third, and finally, when we consider the technology and its 
impact upon our institution as fairly recent, we must look to 
the future and consider how decision-making must mature to keep 
pace with these changes, which leads me to what I believe is 
the fundamental recommendation of the House IT assessment: 
Improving IT decision-making.
    We must recognize that while Congress has existed for over 
two centuries, the use of technology as we define it today is 
still in its infancy. I first arrived on Capitol Hill in the 
early 1980s, about a quarter century ago, when we were still 
using typewriters. There was no e-mail. There was no Internet. 
House Information Services had only come into existence a few 
years before. We then evolved to large word processors the size 
of refrigerators, then to desktops and laptops, and most 
recently to today's ubiquitous PDAs or BlackBerries.
    Within the CAO we have already begun operating under an 
inclusive and coordinated model with the development of our 
Balanced Scorecard Strategic Plan, the CAO Technology Strategic 
Plan, our Capital Investment Planning and Control Strategy, and 
the establishment of our Portfolio Management Office. This 
oversight in strategic planning allows us to look to the future 
and align our resource planning accordingly.
    We are also establishing these plans and oversight 
procedures to ensure that once we have committed the resources 
to delivering solutions, they are delivered as cost effectively 
and efficiently as possible. Even with these efforts, we won't 
achieve our grandest goals on behalf of the House because we 
cannot reach them in isolation. We support establishing a 
structure to coordinate institutional technology decisions in a 
way that effectively involves stakeholders, leadership, 
Members, committees, staff and technology experts throughout 
the process.
    Mr. Chairman, Members, the various volumes of the House IT 
assessment contain a set of well-thought-out, high-level goals 
for the institution, a myriad of specific technology solutions 
and even a draft road map on how they may be carried out over 
the next decade. Speaking for the employees of the CAO, we look 
forward to working with the committee to deliver them. And I 
will be happy to respond to any questions you may have.
    The Chairman. Thank you very much.
    [The statement of Hon. Eagen follows:]

    [GRAPHIC] [TIFF OMITTED] T1073.066
    
    [GRAPHIC] [TIFF OMITTED] T1073.067
    
    [GRAPHIC] [TIFF OMITTED] T1073.068
    
    [GRAPHIC] [TIFF OMITTED] T1073.069
    
    [GRAPHIC] [TIFF OMITTED] T1073.070
    
    [GRAPHIC] [TIFF OMITTED] T1073.071
    
    [GRAPHIC] [TIFF OMITTED] T1073.072
    
    [GRAPHIC] [TIFF OMITTED] T1073.073
    
    The Chairman. And I thank all of you for your excellent 
testimony. It is clear to me that there is much work to be 
done, and a great deal of it rests with coordination among all 
of you.
    That raises another question, which, Ms. Haas, you referred 
to in a sense in your work with the Senate. I recall that over 
the years that has often been a stumbling block. At the same 
time we have so much to gain from working more closely with 
each other.
    I just wanted to ask all of you, do you see any hope of 
developing a much closer working relationship, perhaps using 
combined resources, with the Senate, with regards to 
information technology? Or do you think this is a bridge that 
is too hard to cross or even build?
    Ms. Haas. If I could speak to that first, Mr. Chairman, I 
am optimistic. We are working with them currently within our 
XML Working Group. They are participating, as you are aware. 
But we are also working with them on another front, and we are 
reaching out to the Secretary of the Senate when it comes to 
electronic lobbying filing, and we have--they may be considered 
baby steps at this point--but we are working very closely with 
them, sharing information and supporting them, because we both 
have a very important stake in this process.
    And so at this point, I am very optimistic. We are still 
very early on, but we have a lot of work to do.
    The Chairman. Does anyone else wish to comment on that?
    Mr. Eagen. I do, Mr. Chairman. I have three very tangible 
practical examples of hope in this area. And I concur with 
Karen's perspective that the chances are good that those 
opportunities can be accomplished.
    The first is as a practical example that traditionally the 
telephone exchange, the telephone operators that have been 
doing services for the House and the Senate have been organized 
as a joint facility between the House and the Senate. It was 
located on the Senate side, run by Senate managers, but the 
House supplied half of the personnel. Over time we came to 
recognize that this was an inefficient management structure, 
that half the people were paid by one organization and so 
forth, and through negotiations with the Senate, came up with 
an arrangement where now they are all Senate employees, and the 
House has a contract with the United States Senate to provide 
telephone exchange services to both institutions. And as far as 
I know, there has not been a single complaint. No one even 
noticed.
    The second example is that after the anthrax and 9/11 
circumstances, we obviously had to do quite a bit of 
reinvention of our mail systems here in the House, and part of 
that was to add security features and make sure that the mail 
was delivered safely. And the Senate is now contracting with 
the House for some of its mail processing, packages 
specifically. And so we are doing those House and Senate 
packages together at one facility.
    Finally, and probably the biggest example of success comes 
with the institutions' alternative computer facility. After 9/
11 and anthrax, the institutions made a decision that we were 
quite vulnerable with our redundancy systems, and we needed to 
establish those kinds of capabilities at a remote location. We 
could have done it independently and probably doubled and 
tripled the cost. Instead, the House and Senate agreed to work 
together to establish a central facility, and in the end the 
Library of Congress, the Government Printing Office, the 
Congressional Budget Office, the Capitol Police have all joined 
us together to save costs and work together across those normal 
invisible barriers that exist in the Capitol.
    The Chairman. Thank you. I think each of you has a 
different set of problems. We could have a meeting like this 
every week to try to work through those. And in some respects I 
think we need an IT czar for the House or perhaps eventually 
for the Hill to try to work out all of these issues and 
coordinate everything.
    This has been a constant problem. In the previous 
reorganization and planning, we had to work it all out. It took 
endless amounts of time to meet the needs of every user, and 
now we are facing precisely the same problem.
    So let's tuck that in the back of our minds as perhaps 
eventually an objective to develop a combined system. But the 
immediacy of the problems that we face means that we have to 
take action on a lot of things right now, too.
    Mr. Livingood, you mentioned the IT and emergency services, 
and, frankly, I have been very disappointed in the progress in 
that area. For example, when we evacuated the building, I 
personally received an all-clear on my BlackBerry after I was 
back in the building. Now why didn't I wait for the official 
all-clear? Because it came over television that there was an 
all-clear in effect, so we all went back in the building. We 
shouldn't have to depend on local TV stations.
    Similarly, the event this past week with the deranged 
person racing through the halls of the Capitol armed with a 
pistol, I was shocked. I was in Michigan at the time. I got the 
message that said, ``Please stay in your offices and lock the 
door,'' and I discovered that message was sent out some time 
after the perpetrator had been captured.
    We have to have immediate notification of emergencies like 
that. Do you see that possibility developing?
    Mr. Livingood. Very definitely. We have the technology. In 
those two instances--and we have been working on this, not only 
the technology, but the human error. Those two instances that 
you mentioned were basically human failure. And----
    The Chairman. It seems to happen over and over and over 
again.
    Mr. Livingood. Well, it has happened at least in the last 
6, 7 months several times, twice that I know of. And we have 
taken steps as late as yesterday evening to try to remedy that 
with the command center of the Capitol Police. And we are 
taking action to increase--we have been told they would have a 
communicator in there to run these systems. That was not quite 
the case. That has not been the case.
    So we have asked that they again rededicate someone on all 
shifts that will be right at the equipment to immediately 
transmit on the annunciators or whatever method we need to 
transmit it on instructions to the staff, Members and visitors 
in the buildings.
    The Chairman. Thank you. My time has expired.
    Ms. Lofgren you are recognized for 5 minutes.
    Ms. Lofgren. Well, I think this is a very helpful hearing. 
And, Mr. Eagen, as you were talking about when you first came 
here, I was remembering when I first came here as a staffer 
right out of college in 1970. And we had--it was precomputer. 
We had what was then called a robotype machine, which was a 
paper with little holes. It would break about every fifth 
letter, and we would have to tape it together. And we would--
rather than get our copies of bills on line, because we did not 
have a fully formed Internet, we would go over to the bill room 
over to the first floor of the Capitol, and it was very quaint, 
and you would have to physically get the bills. So we certainly 
have made progress since then, but there is much more to do.
    And as I listened, I mean, there are technical issues, but 
I think really the more serious--the technical issues can be 
solved. It is the policy issues that are going to be tougher to 
do, because really what we are talking about is making this 
whole thing more transparent to the public. You know, the 
lobbying registration should be on line and searchable to the 
public. You shouldn't have to come over to the Capitol to see 
that.
    As the legislative process proceeds, the public as well as 
Members ought to see what is being discussed in draft form, and 
that is not really the way we legislate today.
    So I think that there are going to be some difficult policy 
issues that are going to take some leadership within the House 
through the House leadership and the committee structure. And 
it is really a change of the way we do business in the House 
that we are talking about. And I think that may be a hard 
adjustment for some, but it will be welcomed by the public, and 
it is really the way we ought to do the public's business.
    I was going to ask about the Senate as well, but I think we 
are not really completely all on the same page on our side of 
the Hill yet either. We have a lot of work to do.
    The one thing I did want to mention, you mentioned your 8-
year-old son. I have two children a little bit older than that, 
and thinking back to 1906, 100 years ago, and hopefully our 
children will be here to greet the next century, we have lost 
so much. And I worry, and I know the Librarian is focused on 
this, too, about the electronic records. They won't turn to 
dust, they will--we will have no history. And there is a group 
that is formed out in Silicon Valley to look at open standards 
for documents so that we can make sure that we actually have 
accessible to historians or our successors what it is we are 
doing today and in 100 years or 200 years, because our Republic 
will go on.
    Have you had any interface with that broad group yet? And 
if not, any of you, how might we help pull their energetic 
efforts together with the government with the goal of 
preservation?
    Ms. Haas. I haven't had any dealings at this point with 
this organization. I would love to get more information from 
you. As was mentioned previously, there is an ongoing working-
group-type structure with the Library of Congress in 
conjunction with the National Archives. So this is something 
that is very active and ongoing, so if I could get that 
information from you.
    Ms. Lofgren. Maybe we ought to work it through the Library 
if they are taking the lead.
    Ms. Haas. Absolutely. I think that is an excellent idea.
    Ms. Lofgren. Thank you very much.
    And I guess the only other question I had was for Mr. 
Barrow. You know, we stopped codifying a long time ago, and I 
can't actually imagine that--I guess the Judiciary Committee 
has the major role, but not the exclusive role--that the 
committee which I have served on now for 12 years is actually 
going to drop everything else and go into codification. That is 
just not going to happen.
    Do you think that the lack of codification is substantively 
a deficit on a policy basis for our country? And if so, legally 
could we form a commission to do the detail work? Obviously, 
the Congress would have to adopt it, but a commission to really 
move us forward on codification? Do you think that would be 
worth doing?
    Mr. Barrow. I am not sure what the solution is. The Law 
Revision Counsel which currently is the institution in the 
House that has the responsibility for the codification of 
Federal laws. They do have the technical capability to do that 
and have been doing so at a very slow pace, because there is no 
constituency pushing for this. Like you, I can't see the 
Judiciary Committee taking time off to do this from all the 
things they are being pressed to do.
    Additionally, when they codify a series of laws that are 
currently uncodified, other committees have jurisdiction over 
all those laws, and there is going to be some friction over the 
actual language that is involved, because it is impossible to 
recodify an uncodified title without changing something. The 
numbering, the wording, and other things are going to be 
changed and that makes people very nervous.
    So it is a difficult process. They do every 3 or 4 years 
manage to get another title codified, but it has been a very 
slow process.
    Ms. Lofgren. And we are getting farther behind.
    Mr. Barrow. Yes, they are getting farther behind. I talked 
to the Law Revision Counsel yesterday, and he feels that the 
bulk of the uncodified laws is growing faster than they are 
able to codify. This is relevant to the IT situation because we 
can't provide electronic official documents if there is no 
official document anywhere, electronic or paper. It becomes an 
institutional impediment.
    Ms. Lofgren. Thank you.
    The Chairman. The gentlewoman's time has expired.
    The Chair recognizes Mr. Doolittle for 5 minutes.
    Mr. Doolittle. Thank you.
    Just so I understand, Mr. Barrow, is one of the reasons we 
don't have more codification that frequently laws are put under 
appropriations bills? Does that have something to do with it, 
and therefore they are, by definition, uncodified?
    Mr. Barrow. No, I don't think that is the reason. The bulk 
of our laws are amendments to these Public Laws, and there are 
official copies of each Public Law. But when that Public Law, 
no matter what committee it came from, is amended at this 
point, there is no official version of the law, as amended, 
that anyone has responsibility for maintaining unless it is 
amendment of a codified U.S. Code title. In those cases, with 
24 titles, we do have that.
    We don't, however, have that on a current basis even now 
because the Law Revision Counsel does not have the resources or 
the manpower to be able to provide those documents at the time 
we need to make amendments. It takes 18 months to 2 years to 
get those documents from them.
    Mr. Doolittle. Well, it sounds like we have been applying 
the same approach in the past to our border security that we 
apply to this. It is just not important enough to do? With 
money, couldn't we solve the problem? It sounds like it.
    Mr. Barrow. It would take more resources, but I think it 
would also take some impetus from the leadership essentially 
that this is an important thing to do.
    Mr. Doolittle. This is the first time I have ever heard 
that stuff is going on. It is interesting to hear it. I would 
certainly--I mean, the State legislatures, it works just fine. 
It is amazing that we can't do it here. Can we subcontract with 
commercial services or something to have them do it?
    Mr. Barrow. You could do that. The Law Revision Counsel has 
the ability to do this. With additional resources, they, I am 
sure, could do it. What happens, however, is they get a title 
ready to be codified, and it may take 4 years or so or longer 
even before anything happens politically. Sometimes it just 
does not happen. And now they are down to the more difficult 
titles where there is much more political controversy, so it is 
even less likely to happen.
    Mr. Doolittle. I am interested in this, but I have two or 
three other areas that I want to ask about. So I will learn 
more about it.
    Mr. Eagen, for 5 years I have been trying to get--it turns 
out they are called ``nodes,'' put around the campus so that we 
have BlackBerry reception wherever we go, and we don't lose it 
in HC-5 and other places, and that Verizon isn't having better 
service than Cingular or any of the others. And every time I 
ask over these 5 years, I am told, yeah, we are going to do 
that. It is 6 months away.
    So it is 5 years later, and I am wondering, and I am told 
that 4 months ago my staff was assured that in 6 months from 
then we would have these nodes in place. So we have 2 months 
left. Are we going to have these things installed by Christmas?
    Mr. Eagen. Actually all the House buildings are done and 
have been done for about a year.
    Mr. Doolittle. Awesome. They are done, but they are not 
turned on?
    Mr. Eagen. No. They are turned on, and all the carriers are 
using the repeaters.
    Mr. Doolittle. Are you intentionally blocking HC-5?
    Mr. Eagen. I meant the House buildings. The Capitol is the 
last--I was going to say something, and I held back 
fortunately--the Capitol is the last location that needs to be 
done, and, of course, the CVC will need to be done as well. We 
have a contract in place to do that. There are some issues with 
that contract at the moment, but our plan is to finish that 
work, yes, and have it all be accessible.
    The Capitol was held off as the last location for two 
reasons. One is the sensitivity of the architecture, and that 
putting those--they are repeaters, I think is the name that is 
used in the industry, and the wiring that goes to those 
repeaters is always more challenging in the Capitol. And 
secondly then security sensitivity, and we had those same 
challenges in the House office buildings that in locations 
where there has been security-sensitive briefings or hearings 
and those kinds of things, you have to handle those locations 
in a different manner and plan them out more carefully so that 
there could be positive disconnects and so forth established so 
that penetrations through that technology don't have an adverse 
effect on the content of the discussions.
    Mr. Doolittle. When would you anticipate that the Capitol 
will be up to speed in this area?
    Mr. Eagen. I will have to get back to you Mr. Doolittle. I 
don't have them at my fingertips, the planned completion date. 
I do know that we have had recently a contractual issue that we 
are working through right now that impacts that completion 
date. So I will have to get back to you.
    Mr. Doolittle. Would it be reasonable to believe that this 
should be completed at the time the visitor center comes on 
line?
    Mr. Eagen. I know that we had established a contract and 
agreement with the Senate as to how the visitor center would be 
handled. I think, without having the completion dates at my 
fingertips to give you with a valid assurance, I think, yes, 
that is generally the plan. But I would want to get back to you 
and confirm that before you hold me to it.
    Mr. Doolittle. Well, please do. I am interested in having 
that situation taken care of. Thank you.
    The Chairman. The gentleman's time has expired. I 
appreciated your questions, as I had some of those same 
questions.
    Just one final wrap-up.
    Mr. Eagen, you discuss seat management, which is the term 
that is used for what I talked earlier about, treating 
computers like telephones. From your standpoint, and you would 
bear the burden of setting this in place through your office 
and HIR, do you see anything that would give us cause in trying 
to pursue this, other than the political and perception 
problems?
    Mr. Eagen. I think it is definitely worth pursuing in the 
House. We need to go into it with our eyes wide open. And 
actually I thought Mr. Doolittle might ask about the subject, 
because it is something that he has been equally interested in 
in the past. And as a result of some of his inquiries, we 
actually are doing a pilot with seat management and using CAO 
as the pilot audience.
    And so we have made a shift over where we have gone to a 
contractor and have installed so far about two-thirds of our 
organization on a seat management methodology. And to explain 
seat management, there is a lot of different flavors of it, but 
essentially it is taking the desktop that all of us use, or a 
laptop for that matter, and treating it as kind of a commodity, 
and that the hardware and potentially portions of the software 
are centrally managed and centrally acquired and standardized.
    In CAO, that is somewhat relatively easy to do. We do have 
some places where we have some high end users where a standard 
desktop configuration, either from the power of the machine or 
the software, may need to be adapted.
    In Member offices, though, or even committees for that 
matter, it becomes a bit more of a challenge because 
historically the operating principle here has been to give 
offices full discretion and full choice. And therein lies the 
trade-off. With standardization you have the potential for 
economies of scale on the acquisition of the hardware. You have 
opportunities for standardization of support because you are 
going with certain desktop features. But it is certainly a 
challenge to choice and discretion. And where does the House 
want to be positioned?
    I think there are prospects to do that, but it goes back to 
business decision-making. Are we going to stay with as much 
decentralization and as much choice as we have traditionally 
offered Member offices, or are we willing to move somewhere to 
the middle? I could see a seat management that offers perhaps 
tiers of support.
    You were mentioning the different kinds of Members that we 
have around here with the White Out versus those that are high-
tech. Perhaps there are tiered levels of seat management 
support depending on the office's business practices and 
preferences. The more choice you have, the less 
standardization, the more cost, but less customization as well. 
So those are the trade-offs as I see it.
    The Chairman. Yes, it is a difficult problem, and a decade 
ago I went through this. Actually it is very difficult, as I 
found out, to network 11,000 computers and do it properly. And 
that is a very challenging technical problem. But I found the 
political problems were much, much greater than the technical.
    Mr. Eagen. Mr. Chairman, if I may, there is another aspect 
to this that would certainly directly confront this committee, 
and it would be the budgetary aspect. Right now through the 
Members' representational allowance, most of the control over 
the in-office technology decisions is vested with the Members. 
And so if the House wanted to contemplate some kind of method 
like this, that would be one of the hurdles to confront. One 
option would be, well, you add more moneys perhaps into my 
budget, and we do this centrally; but, of course, that adds 
more money to the House budget, and we are in relatively 
challenging budgetary times.
    The other option would be to have a pooled share of 
resources, and would the Members be willing to make 
contributions from their accounts to something like that?
    The Chairman. Well, there are technical problems, there are 
budgetary problems, but the political problems outweigh it. At 
least in my experience, having 435 system analysts in 435 
offices, plus the committees, telling their boss that I am an 
idiot because I was trying to do something that might cost them 
their job; and their Member of Congress then would go to Newt 
Gingrich and tell him I am an idiot. I fought a lot of 
political battles to get what we got, and I gave up on the 
centralized service system. That was an impossibility at that 
time. I think it is a possibility now, but it will not be easy.
    Mr. Eagen. Actually, you shouldn't give up hope. We are 
moving in that direction.
    The Chairman. Well, we already have it in one facility, and 
so there is no reason not to have it in two. We need to 
remember the budgetary issue, as it does save money for the 
institution. So that is something we have to investigate.
    Let's see, I was going respond to one comment you made, but 
I have forgotten it. Do you have any further questions?
    Ms. Lofgren. No, I just--obviously we are about to adjourn, 
but I think this is a topic that we will revisit, and I am glad 
that this will be posted not only for current Members, but 
freshman Members to review. For the freshmen, this is something 
I am sure that they have no idea what they are walking into. 
But I think that if we could make some decisions in the early 
next year time frame, that we will be making progress. And I 
really appreciate the participation of all the witnesses. Very 
helpful. Thank you.
    The Chairman. I second that. And what is heartening about 
this, every year we get new freshmen who are far more computer 
literate than the people they are replacing in general.
    I also just wanted to comment, Ms. Lofgren, on your issue 
about preserving records. I was involved in the state of 
Michigan in allowing all the county clerks to maintain their 
records in electronic form, but no one had thought about long-
term preservation. I managed to get an amendment, which to my 
knowledge is still working well, that they had to maintain the 
algorithms and the software, and whenever there is a major 
change, they had to change everything over to the new 
algorithms and new software in order to maintain a permanent 
record. That is troublesome, but it is important. Otherwise we 
will lose the records in 5 years.
    Ms. Lofgren. On that point, Mr. Ehlers, it is not just the 
legislative branch, but we are really failing governmentwide on 
that whole issue. We might be a leader in changing that.
    The Chairman. Actually we are failing nationwide, not just 
govermentwide.
    Mr. Doolittle has another question and is recognized.
    Mr. Doolittle. Well, I would just like to--I don't know if 
you were hinting at this or not, Mr. Eagen, but now that Apple 
has moved to the Intel chip, is that making all of this desired 
harmony a little easier? Or is that just a tiny part of what 
you are even talking about?
    Mr. Eagen. It is really just a tiny part of it.
    Mr. Doolittle. Well, okay. Thank you for your work, and 
encourage you to make these things happen as quickly as 
possible.
    The Chairman. Now that you have two Macintosh aficionados 
here, we assume that will be part of the next step in improving 
information technology in the House of Representatives.
    With that, I thank all the witnesses for their 
participation. Speaking for myself, it has been extremely 
beneficial to get a better handle on not only the issues, but 
also the problems that each of you face. And it helps me to 
recognize all the different things that have to be done. And it 
has been very, very helpful to me, and we will continue to have 
dialogues on this topic in the future, more frequently and in a 
less formal setting than this.
    Thank you all for your ideas and your participation. With 
that, the meeting stands adjourned.
    We have just a few wrap-up things. I ask unanimous consent 
that Members and witnesses have 7 calendar days to submit 
material for the record, including additional questions of the 
witnesses, and for those statements and materials to be entered 
in the appropriate place in the record.
    Without objection, the material will be so entered. [The 
information follows:]

[GRAPHIC] [TIFF OMITTED] T1073A.043

[GRAPHIC] [TIFF OMITTED] T1073A.044

[GRAPHIC] [TIFF OMITTED] T1073A.045

[GRAPHIC] [TIFF OMITTED] T1073A.046

[GRAPHIC] [TIFF OMITTED] T1073A.047

[GRAPHIC] [TIFF OMITTED] T1073A.048

[GRAPHIC] [TIFF OMITTED] T1073A.049

[GRAPHIC] [TIFF OMITTED] T1073A.050

[GRAPHIC] [TIFF OMITTED] T1073A.051

[GRAPHIC] [TIFF OMITTED] T1073A.052

[GRAPHIC] [TIFF OMITTED] T1073A.053

[GRAPHIC] [TIFF OMITTED] T1073A.054

[GRAPHIC] [TIFF OMITTED] T1073A.055

[GRAPHIC] [TIFF OMITTED] T1073A.056

[GRAPHIC] [TIFF OMITTED] T1073A.057

[GRAPHIC] [TIFF OMITTED] T1073A.058

[GRAPHIC] [TIFF OMITTED] T1073A.059

[GRAPHIC] [TIFF OMITTED] T1073A.060

[GRAPHIC] [TIFF OMITTED] T1073A.061

[GRAPHIC] [TIFF OMITTED] T1073A.062

[GRAPHIC] [TIFF OMITTED] T1073A.063

[GRAPHIC] [TIFF OMITTED] T1073A.064

[GRAPHIC] [TIFF OMITTED] T1073A.065

    The Chairman. I ask unanimous consent that staff be 
authorized to make technical and conforming changes on all 
matters considered by the committee at today's hearing. Without 
objection, so ordered.
    Having completed our business for today and for this 
hearing, the committee is hereby adjourned.
    [Whereupon, at 11:51 a.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
